HHS/OIG, Audit - "Audit of Blue Cross Blue Shield of Georgia's Unfunded
Pension Costs for 1994 to 2001," (A-07-07-00237)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Blue Cross Blue
Shield of Georgia's Unfunded Pension Costs for 1994 to 2001," (A-07-07-00237)
November 16, 2007
Complete Text of Report is available in PDF format (648 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to (1) determine whether
the accumulated unfunded pension costs identified in our prior review
(A-07-94-00778) of Blue Cross Blue Shield of Georgia (Georgia) were accounted
for properly; (2) determine whether pension costs for plan years 1994 through
2000 were funded in accordance with the Federal Acquisition Regulation (FAR) and
Cost Accounting Standards (CAS); and (3) identify and properly account for any
additional accumulated unfunded pension costs, including the identification of
the allowable and reassignable portions of the accumulated unfunded pension
costs.
Georgia did not properly account for all of the accumulated
unfunded pension costs identified in our prior review.  For the current audit
period (1994 through 2000), pension costs were funded in accordance with FAR and
CAS in all years except plan year 1999.  As a result, Georgia understated
accumulated unallowable unfunded pension costs by $1,201,461 ($88,452 for the
Medicare segment plus $1,113,009 for the Other segment) as of January 1, 2001.
We recommended that Georgia (1) identify $1,201,461 of
accumulated unallowable unfunded pension costs ($88,452 as an unallowable
component of Medicare segment pension costs and $1,113,009 as an unallowable
component of the Other segment pension costs) as of January 1, 2001; and (2)
properly identify, and update with interest, unallowable unfunded pension costs
in subsequent years.  Georgia concurred with our recommendations.